1301 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
United States

Paul D. Clement
To Call Writer Directly:
+1 202 389 5000
paul.clement@kirkland.com

Facsimile:
+1 202 389 5200

+1 202 389 5000
www.kirkland.com

August 17, 2020
Electronic Filing and Overnight Delivery
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re: Kansas City Royals Baseball Corp. v. Senne, No. 19-1339
Dear Mr. Harris:
Pursuant to this Court’s order dated March 19, 2020, petitioners in the above-captioned
case respectfully request that the Court delay distribution of the petition for writ of certiorari by
one week, from August 26, 2020, until September 2, 2020. Delaying distribution will not change
the conference at which the petition is considered (the conference on September 29, 2020).
Respondents have consented to a one-week delay in the distribution of the petition.
Respectfully submitted,

Paul D. Clement
cc:

Beijing

Boston

All counsel of record

Chicago

Dallas

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

San Francisco

Shanghai

